No. 20-184

IN THE
SUPREME COURT OF THE UNITED STATES

Jamel Ellerbee,
Petitioner
v.

Annett Holdings, Inc. d/b/a TMC Transportation, et al.,
Respondents
On Petition For A Writ of Certiorari to
The United States Court of Appeals
For the Fourth Circuit
PETITION FOR REHEARING

Jamel Ellerbee
Pro Se Petitioner
PO Box 37367
Raleigh, N.C. 27627
844.408.8282
November 9,2020

RECEIVED
NOV 1 3 2020
jr,ggfM°EFCTQHUERCTL^K

-■>

TABLE OF CONTENTS
Page(s)
Table of Authorities

.2

Grounds For Rehearing
Intervening Circumstances.

,3

Other Issues Not Raised
I. USDOL, by final rule and action, is in direct violation of the Interstate Commerce
and Necessary and Proper Clauses of the US Constitution......................

,3-5

II. The Petition (submitted on July 30,2020) and the USDOL proposed rule
(distributed on September 22,2020) both seek to clarify independent contractors
under a specific Act, which shows the issue of classification to be both urgent and
necessary to the entire nation

,5-7

Conclusion,

,7

Certificate

.8

1

*...

‘•w'-

TABLE OF AUTHORITIES
Page(s)
Constitutional Provisions
Article I, Section 8.

3
Statutes. Regulations. Cod os, and Aots

U9 U.S.C. § 81105.

,3

9/11 Commission Act (Public Law 110-58)

3,5-7

29 C.F.R. § 1978.110(b)

A

U9 U.S.C. § 81105 (D)

5

U9 U.S.C. § 81105 (G)

5

U9 U.S.C. § 81105 (J)

.8

Cases
Tinker Air Force Base v. FLRA. 321 F.3d 1242,1246 (10th Cir. 2002).........................

,4

United States v. Wri/ihtwood Dairy Co. 315 U.S. 110 (1942).........................................

.4

Blevins v. Director. Office of Workers’ Com.n. Programs 683 F.2d 139,143 (6th Cir.
1982)....................................................................................................................

.4

Cf High v, Lockheed Martin Energy Sus.. Inc. ARB No. 03-026, ALJ No. 96-CAA-8
(1998)....................................................................

2

.6

¥ ■

u •

GROUNDS FOR REHEARING
Intervening Circumstances of a Substantial or Controlling Effect
The Petition for Writ was filed on July 30,2020 and there were 9 Justices on the US
Supreme Court. On September 18,2020 the Country suffered a loss of life from Honorable
Justice Ruth Bader Ginsburg. Denial of the Petition for Writ of Certiorari occurred on
October 16,2020 containing a bench of only eight Justices. To be granted certiorari, the Rule
of Four must be achieved. Gaining the interest of four Justices while eight are on the bench
gives different odds than achieving the Rule of Four with nine Justices present. On October
26,2020, Justice Amy Barrett was confirmed to the United States Supreme Court, which
allows this issue of effect to be raised, timely, in an attempt to receive four votes under a full
Court, as originally petitioned for. This Court does not reveal the number of votes a Petition
achieves, therefore there is no way to know if one more Justice would have changed the
outcome.
Other Issues Not Previously Raised
I. This Petition challenges the USDOL (by final rule and action), to be in direct
violation of the Interstate Commerce and Necessary and Proper Clauses of the US
Constitution while in care of STAA U9 U.S.C. § 81105) proceedings by departing from
the desired goal of the legislation and causing a negative impact on interstate commerce.
The power of Congress to "regulate Commerce with foreign Nations, and among the
several States, and with the Indian Tribes," is contained within Article I, Section 8. Congress
has updated the STAA Whistleblower statute’s language with the 9/11 Commission Act.
USDOL is in repetitive violation of the directives from Congress, and, conduct themselves in
unlawful capacity. USDOL’s actions and rules, involving a STAA case, have a direct effect on

3

interstate commerce and must always follow the language and statutory intent from
Congress. USDOL must recognize the STAA as separate from any other whistleblower
statue(s) they are responsible for enforcing while addressing retaliation that occurs during
the course of duty, operating or in control over a commercial motor vehicle.
USDOL arguing to the Fourth Circuit in this case, “the general rule is well
established that reviewing courts will not overturn an agency’s strict application of its own
procedural rules as long as the rule is applied uniformly or with reasoned distinctions,”
linker Air Force B^e yf FLRA, 321 F.3d 1242,1246 (10th Cir. 2002), directly conflicts with
legislation addressing application of any and all rules relative. All actions from the agency in
this manner are unlawful and conflict negatively with the Interstate Commerce Clause.
Congress has the full authority to direct USDOL exactly how to address STAA claims, and,
USDOL should never deviate. “The commerce power is not confined in its exercise to the
regulation of commerce among the states. It extends to those activities intrastate which so
affect interstate commerce, or the exertion of the power of Congress over it, as to make
regulation of them appropriate means to the attainment of a legitimate end, the effective
execution of the granted power to regulate interstate commerce.... The power of Congress
over interstate commerce is plenary and complete in itself, may be exercised to its utmost
extent, and acknowledges no limitations other than are prescribed in the Constitution...”
United States v. Wnoht/wood Dairy Co . 315 U.S. 110 (1942).
In another instance, if no timely petition for review is filed, the resulting final order is
not subject to judicial review,” (29 C.F.R. § 1978.110(b)) Blevins v. Director. Offi™ nf WrvHW
CjmVr Pragma, 683 F.2d 139,143 (6th Cir. 1982), is in direct conflict of the necessary and
proper clause of the US Constitution by deviating from Congress’ updated language included

4

♦

in the 9/11 Commission Act. A timely filed petition in Circuit Courts have been fully
addressed at k9 U.S.C. § 81105 (D) which states, “A person adversely affected by an order
issued after a hearing under subsection (b) of this section may file a petition for review, not
later than 60 days after the order is issued, in the court of appeals of the United States for the
circuit in which the violation occurred or the person resided on the date of the violation.
Review shall conform to chapter 7 of title 5. The review shall be heard and decided
expeditiously.” Circuit Court procedures have been addressed directly from Congress and
“nothing in this section shall be deemed to diminish the rights, privileges, or remedies of any
employee under any Federal or State law or under any collective bargaining agreement. The
rights and remedies in this section may not be waived by any agreement, policy, form, or
condition of employment.” U9 U.S.C. § 31105 (G)). The management of the case at the Circuit
Courts have deviated from the intended goal of Congress and also negatively affect interstate
commerce.
The STAA is legislated to be the sole federal remedy to promote safe highway
movement by restoration of the duties of the “employee”, timely. Every action and policy
that has a negative impact on the ability, of an “employee” to perform their job, is in direct
violation of the US Constitution due to also negatively affecting interstate commerce, Legal
judiciary execution of the STAA, as legislated by Congress, would only allow STAA cases to
be determined only by case law of other STAA cases, post 9/11 Commission Act, as other
statutes are not directly related to interstate commerce.
II. This Petition (submitted on July 30,2020) and the USDOL proposed rule
(distributed on September 22,2020) both seek to clarify independent contractors under
a specific Act, which shows the issue of classification to be both urgent and necessary to

5

a.

the entire nation.
USDOL now seeks to classify independent contractors for the Fair Labor Standards
Act, and, this Petition seeks interpretation of classification of independent contractors under
the Surface Transportation Assistance Act, and, the broadened 9/11 Commission Act.
Conflicts have created an “employee,” unable to obtain statutory retaliation protection
from USDOL, while he is also an “employer,” subject to prosecution by the statute, In order
to properly address retaliation, one must determine where the retaliatory actions come from.
A truck dispatcher advises the drivers employed by a commercial motor vehicle fleet
on what exact procedures are necessary to complete the freight transportation, legally. The
dispatcher is directly responsible for the safety of all trucks and drivers. Petitioner is on
record as the head of the safety department and dispatcher of the commercial motor carrier
involved in this movement of interstate commerce.
A truck dispatcher as an “employer”. An “employer” has “the ability to hire, transfer,
promote, reprimand, or discharge the complainant, or to influence another employer to take
such actions against a complainant, is evidence of the requisite degree of control.” Cf.Hiahv.
Lockheed Martin Energy Sus.. Inc. ARB No. 03-026, ALJ No. 96-CAA-8 (1998).
A truck dispatcher as an “employee.” Congress directly addressed who is an
“employee” as “a driver of a commercial motor vehicle (including an independent contractor
when personally operating a commercial motor vehicle), a mechanic, a freight handler, OR an
individual not an employer, who - (1) directly affects commercial motor vehicle safety or
security in the course of employment by a commercial motor carrier; and (2) is not an
employee of the United States Government, a State, or a political subdivision of a State acting
in the course of employment.” (U9 U.S.C. § 81105 (J)).

6

This issue of classification, composed entirely of statutory interpretation, is of
immediate need to be heard by the highest level of judiciary, within the United States,
to preserve the productivity of interstate commerce.

CONCLUSION
This Petition guarantees to improve nationwide highway safety while truck crashes
involving deaths have increased forty eight percent between 2009 and 2019 by solving
antiquated practices, from USDOL and lower courts, that have strayed far away from the
intended goal of Congress. The same damaging practices that developed in lower courts,
since inception of the STAA, still occur and are being challenged as unconstitutional, unlawful,
and departure from Congressional intent of the 9/11 Commission Act, which places the
agency in violation of the US Constitution under the Interstate Commerce and Necessary
and Proper Clauses for negatively impacting interstate transportation.
For the foregoing reasons, this Petition for Rehearing should be GRANTED.

Respectfully,

zJ
Jamel Ellerbee
Pro Se Petition*
November 9,2020

7

■w

CERTIFICATE
I hereby certify that this Petition for Rehearing is presented in good faith and not for
delay, and that it is restricted to grounds specified in Supreme Court Rule 44.2.

Jamel Ellerbee

8

